         OFFICE OF INSPECTOR GENERAL, NATIONAL RAILROAD PASSENGER CORPORATION
                                10 G STREET, NE, SUITE 3W-300, WASHINGTON, DC 20002




ANNUAL AUDIT, INSPECTION, &
EVALUATION PLAN
FISCAL YEAR 2012




                                      FY 2012 AIE Plan |      March 22, 2012
NATIONAL RAILROAD
PASSENGER CORPORATION                          The Inspector General


INSPECTOR GENERAL’S MESSAGE

 I am pleased to present the Amtrak Office of Inspector General Fiscal Year 2012 Annual
 Audit, Inspection, and Evaluation Plan. This year promises to be another challenging and
 demanding one as we work to accomplish our core mission of conducting
 independent and objective audits, inspections, and evaluations—to promote economy,
 efficiency, and effectiveness in Amtrak’s programs and operations; and to prevent and
 detect fraud, waste, abuse, and mismanagement. This plan (1) outlines the areas in
 which we intend to undertake audit, inspection, and evaluation work during this
 fiscal year; (2) summarizes our most recent reports; (3) discusses our ongoing work,
 and (4) identifies future work focus areas.

 We are working to improve our planning process and as part of that effort we are
 changing our planning period from a calendar to a fiscal year basis. As a result, this is
 a transitional plan and is being issued in mid-Fiscal Year 2012. Future plans will be
 issued early in the fiscal year. Please direct any questions or comments to me; Tom
 Howard, Deputy Inspector General; David Warren, Assistant Inspector General,
 Audits; or Calvin Evans, Assistant Inspector General, Inspections and Evaluations.
 We can all be reached at 202.906.4600.




 Ted Alves
                                         Amtrak Office of Inspector General
                                                         Fiscal Year 2012
                               Annual Audit, Inspection, and Evaluation Plan


                                                     TABLE OF CONTENTS
                                                                                                                            Page


Introduction ....................................................................................................................3

Governance .....................................................................................................................4

Acquisition and Procurement ......................................................................................9

Information Technology .............................................................................................13

Train Operations and Business Management ..........................................................16

Human Capital Management .....................................................................................21

Safety and Security ......................................................................................................24

American Recovery and Reinvestment Act of 2009 ................................................26

Asset Management ......................................................................................................29

OIG Mission and Contact Information .....................................................................31
INTRODUCTION
During the remainder of Fiscal Year (FY) 2012, we will focus our audit, inspection, and
evaluation efforts in the following areas:

   Governance
   Acquisition and Procurement
   Information Technology
   Train Operations and Business Management
   Human Capital Management
   Safety and Security
   American Recovery and Reinvestment Act of 2009
   Asset Management

We identified these areas based on their importance to Amtrak in (1) achieving
operational and financial excellence and (2) reducing operational and financial risks. To
do this, we obtained input from our staff, Amtrak’s Board of Directors, and Amtrak
management officials. We also considered areas of congressional interest based on
discussion with congressional staff, hearings, and other congressional information
sources. The overall goal of our work will be to identify specific recommendations to
improve the economy, efficiency, and effectiveness of Amtrak’s programs and
operations; and to detect and prevent fraud, waste, and abuse.

For each of these areas, we provide a brief overview of

   its importance to Amtrak’s operational and financial well-being,
   our recently issued reports,
   ongoing audits/inspections and evaluations,
   potential audits/inspections and evaluations topics for FY 2012, and
   potential areas of focus beyond FY 2012.

As resources become available to initiate new audits, inspections, and evaluations
during FY 2012, we will select them based on the risk criteria discussed above.




                                                                                            3
GOVERNANCE
Over the past 10 years, the subject of corporate governance and risk management has
received increased attention. Corporate governance is defined as a system of internal
control encompassing policies, processes, and people, which serves the needs of
shareholders and other stakeholders, by directing and controlling management
activities with good business savvy, objectivity, accountability, and integrity. Effective
governance and risk management processes are essential in helping to avoid an event
that could prove catastrophic to an organization’s financial and operational health. Our
governance audit/evaluation focus will be on enhancing the stewardship of company
resources by evaluating senior leadership’s processes, policies, and activities to identify
areas where corporate governance can be improved.


Recently Issued Reports (Governance)

   Amtrak Invoice Review: Inaccurate Invoices Were Paid, But Progress is Being Made to
   Improve the Invoice-Review Process (Audit Report OIG-A-2012-005, February 16, 2012)

   We identified $736,126 in net overbillings that CSX Transportation, Inc., invoiced to
   Amtrak for use of its tracks, facilities, and services. We sampled invoices over a 106-
   month audit period (June 1999 through March 2008) and found errors or
   unsupported claims in 7 of 12 cost components examined. The net overbillings
   represent approximately 1 percent of the more than $66 million that Amtrak paid for
   services during these sample months. The invoice amounts contained errors because
   they were not calculated in accordance with the operating agreement between
   Amtrak and CSX Transportation, Inc., or were unsupported. Additionally, the
   overbillings went undetected because Amtrak did not have in place an adequate
   review process during that period.

   Amtrak is, however, making progress in developing its capabilities for reviewing
   host railroad invoices and addressing our prior recommendations. For example,
   Amtrak established the Host Railroad Invoice Administration group, which is
   reviewing select invoices using a limited set of factors. The Law Department is also
   working to negotiate settlements on overpayments that we previously identified.
   Amtrak plans to further improve the invoice review process through several




                                                                                              4
initiatives, including developing policies and procedures for reviewing all invoices,
creating job aids to facilitate invoice processing, and collecting outstanding
overpayments identified in prior audit reports. While Amtrak continues to make
progress in developing policies and procedures, training, and invoice reviews, the
company has not yet implemented all of our recommendations. In this report, we
recommended that Amtrak’s Chief Financial Officer take action to recover the
$736,126 that Amtrak overpaid CSX Transportation, Inc.

Amtrak agreed with our recommendation and committed to tasking the Managing
Deputy General Counsel, on behalf of Amtrak’s Transportation and Finance
departments, with pursuing any amounts that are recoverable under the law and
within the terms of the operating agreement between Amtrak and CSX
Transportation, Inc.


On-Time Performance Incentives: Inaccurate Invoices Were Paid Due to Weaknesses in
Amtrak’s Invoice-Review Process (Audit Report OIG-A-2012-004, February 15, 2012)

From May 2002 through June 2006, BNSF Railway overbilled Amtrak $9,151,451,
almost 17 percent of the nearly $55 million in on-time-performance (OTP) incentives
invoiced and paid. These funds could potentially be recovered and put to better use.
The overbillings went undetected because Amtrak did not have in place an adequate
review process during that period.

Amtrak is, however, making progress in developing its capabilities for reviewing
host railroad invoices and addressing our prior recommendations. We
recommended that Amtrak’s Chief Financial Officer take action to recover the
$9,151,451 that Amtrak overpaid BNSF Railway in OTP incentives.

Amtrak agreed with our recommendation and committed to tasking the Managing
Deputy General Counsel, on behalf of Amtrak’s Transportation and Finance
departments, with pursuing any amounts that are recoverable under the law and
within the terms of the operating agreement between Amtrak and BNSF Railway.




                                                                                        5
  On-Time Performance Incentives: Inaccurate Invoices Were Paid Due to Longstanding
  Weaknesses in Amtrak’s Invoice-Review Process (Audit Report 403-2010, April 21, 2011)
                                                                                          5
  We reported that Metro-North Commuter Railroad inconsistently or inappropriately
  applied provisions of its operating agreement with Amtrak, causing invoices to be
  overstated. Metro-North’s billing errors went undetected because of longstanding
  weaknesses in Amtrak’s invoice-review process. Consequently, Amtrak overpaid
  Metro-North by almost $520,000 in on-time-performance incentive payments from
  October 2001 through December 2004. Over time, we have identified approximately
  $27 million in overpayments and potential recoveries. Amtrak management is
  seeking recovery of overpayments and has stated that it plans to add resources,
  enhance controls, and implement a new billing review process for on-time-
  performance incentive payments. We are encouraged that management is aware of
  the significance of this matter and the need for improvement, and is working
  aggressively in accordance with an implementation schedule.


Ongoing Audits/Inspections and Evaluations (Governance)

  Enterprise Risk Management. A review to determine whether Amtrak’s risk
  management framework and processes are effective in identifying and controlling
  financial, operational, and regulatory risks, and are consistent with private and
  public best practices.

  Railroad Audits: On-time Performance. A series of internal control audits reviewing
  Amtrak’s payments to railroads for on-time-performance incentives, including
  Burlington Northern Santa Fe Railway (BNSF), Union Pacific Railroad Company,
  Southern Pacific Transportation Company, and Metro-North Commuter Railroad.
  The objectives are to evaluate the adequacy of Amtrak’s controls and processes for
  reviewing on-time-performance incentive invoices and to identify any unsupported
  invoices.

  Railroad Audits: Non-on-time Performance. Review of monthly invoices (excluding on-
  time performance) from railroads including Southern Pacific, Union Pacific, and




                                                                                          6
   BNSF. Our objectives are to evaluate the adequacy of Amtrak’s controls and
   processes for reviewing monthly invoices and to identify any that are unsupported.

   Claims Management. Review of the adequacy of Amtrak’s management controls over
   its claims program. The Law and General Counsel Department’s tort claims and
   litigation group (Claims Office) manages the program for settling claims by
   employees, passengers, trespassers, and others against Amtrak; and claims by
   Amtrak for rolling stock and property damages by third parties. We are using best
   practices to conduct our review of management controls.

   Financial Statement Oversight. An ongoing financial statement oversight audit
   reviewing the administration and facilitation of the contract for the independent
   public accountant preforming the FY 2011 financial statement audits. The audit will
   also review the contractor’s performance to ensure compliance with professional
   and governmental auditing standards.


FY 2012 Potential Audits/Inspections and Evaluations (Governance)

Potential areas for review during FY 2012 include:

   Financial Statement Oversight. This audit will review Amtrak’s administration and
   facilitation of the contract for the independent public accountant preforming the FY
   2012 financial statement audits. The audit will also review the contractor’s
   performance to ensure compliance with professional and governmental auditing
   standards.

   Business Case Development. This evaluation will review several of Amtrak’s recent
   major procurements and business initiatives. Specifically, we are planning to
   evaluate the process used to develop the business cases for these procurements and
   initiatives, comparing the process with best practices at other large companies when
   making major business decisions.

   Capital Program Cost Management. This audit will evaluate the adequacy of Amtrak’s
   processes for estimating project costs and controlling the costs of ongoing projects.
   Amtrak spent over $1 billion on capital projects during FY 2011.




                                                                                           7
Potential Focus Areas beyond FY 2012 (Governance)
                                                                                       7
Our forward-looking work in the governance area will focus on assessing Amtrak’s
progress in implementing our recommendation to establish a risk management
framework for the company. We will identify processes that have been established by
Amtrak management and the Board of Directors to identify and mitigate risks. We will
also review the effectiveness and efficiency with which these processes are being
implemented. In addition, we will continue our oversight of Amtrak’s financial
statement audit conducted by an independent public accountant, and review the
effectiveness of Amtrak’s organizational realignment.




                                                                                       8
ACQUISITION AND PROCUREMENT
Amtrak plans to make significant investments in infrastructure and fleet acquisitions
over the next 5 years. To achieve its 15-year plan to achieve a “state of good repair,”
Amtrak estimated that it will need to invest an average of $700 million each year. OIG
audits in this area seek to identify cost savings and opportunities for Amtrak to
improve the use of its resources and reduce its reliance on federal subsidies.


Recently Issued Reports (Acquisition and Procurement)

   Incurred-Cost Contract Audit: Contract Modification Charge for Extended Indirect
   Overhead Costs Not Supported (Audit Report OIG-A-2012-006, February 17, 2012)

   Our analysis of the documentation supporting the extended overhead claim showed
   that the claim was not adequately supported. The extended overhead modification
   allowed charges to be billed for extended indirect overhead costs resulting from the
   increase in the contract’s period of performance. However, the contractor claimed
   direct costs, general and administrative costs, and profit, instead of submitting
   extended indirect overhead costs. Therefore, we concluded that the contractor’s
   claimed costs were not allowable under the terms of the contract modification. As a
   result, Amtrak paid the contractor $2,027,446 for charges that were not adequately
   supported. We recommended that Amtrak’s Chief Logistics Officer

   1. work with the contractor to establish an appropriate claim amount for the
      extended indirect overhead that is supportable and verifiable; and

   2. based on the results of that review, recover any unsupported portion of the
      $2,027,446 paid to the contractor under the extended overhead contract
      modification.

   Amtrak’s Chief Logistics Officer agreed with our finding and recommendations. He
   stated that Amtrak’s Procurement and Materials Management Department has
   entered into discussions with the contractor regarding this matter and expects
   closure by April 30, 2012.




                                                                                          9
Incurred-Cost Contract Audit: Bridge Construction Modification Settlement Agreement
Cost is Adequately Supported (Audit Report OIG-A-2012-002, November 7, 2011)

Our analysis of the documentation supporting the original $5.3-million claim
showed that a $3.6-million settlement agreement amount was adequately supported.
We questioned $1,082,043 of the $5,268,581 claim, but the resulting supported
amount exceeded the $3.6-million settlement amount. We made no
recommendations in this report and Amtrak management agreed with the report
conclusion.

Acela Car Purchase Draft Request for Proposal: Additional Requirements and Pre-Award
Audit Clause Needed to Help Assess Proposed Cost and Price (Audit Report 009-2011,
September 21, 2011)

While the draft request for proposal (RFP) required the offeror to submit a price
proposal that included necessary costs, there are two areas in the draft RFP that, if
improved, would enhance Amtrak’s ability to assess the reasonableness of the price
proposal. These improvements represent acquisition best practices that are based on
the Federal Acquisition Regulation. First, the draft RFP did not require that the
offeror provide certified cost and pricing data sufficient for a detailed assessment of
the reasonableness of the price proposal. Second, the draft RFP did not include a
pre-award audit and inspection clause providing Amtrak access to the offeror’s
supporting documentation. These gaps occurred because Amtrak’s standard
contracting policies for sole-source RFPs do not contain specific guidance on
requirements for certified cost and pricing data or a pre-award audit clause. Without
these elements, Amtrak will potentially not have sufficient information with which
to assess the reasonableness of the offeror’s proposal and negotiate a fair and
reasonable firm, fixed price.

We recommended that Amtrak revise the Acela request for proposal and amend its
procurement policy to require the same revisions in all sole-source RFPs in excess of
its small dollar threshold ($100,000). Amtrak management agreed with our
recommendations and implemented them in its issuance of the Acela coach car RFP
on August 30, 2011. Amtrak’s corrective action to amend its procurement policy is
still pending.




                                                                                          10
   Amtrak Should Negotiate a Price Adjustment to a Major Acquisition Contract (Audit
   Report 219-2010, January 12, 2011)

   We identified more than $16.6 million in costs for which Amtrak should seek a price
   adjustment. Although we found no basis to question the vast majority of costs in the
   contractor’s price proposal, we determined that the contractor did not reasonably
   apply its estimating system to several cost categories in which Amtrak could realize
   cost reductions through negotiations. Specifically, the contractor duplicated profit,
   misapplied labor and training rates, overstated general and administrative costs,
   and included warranty and risk costs that we found to be unreasonable. Amtrak
   agreed with our recommendation to use the information we developed as a basis for
   negotiating a price adjustment to this contract and to support future negotiations
   regarding contract options and modifications.


Ongoing Audits/Inspections and Evaluations (Acquisition and Procurement)

   Acela Car Purchase. A review of a proposal to manufacture 40 additional coach cars
   for the Acela trainsets and determine whether the offeror’s proposal is responsive to
   the RFP and represents a fair and reasonable price.



FY 2012 Potential Audits/Inspections and Evaluations Topics (Acquisition and
Procurement)

   Pre- and Post-award Reviews. During FY 2012, we plan to review the efficiency and
   effectiveness of Amtrak’s acquisition and procurement processes. Our planned work
   includes pre- and post-award reviews of significant contracts, with the goal of
   identifying cost savings and performance audits of procurement processes,
   practices, and policies to identify systemic risks and make recommendations for
   organizational improvement.

   Contract Oversight. We will review the skills and training Amtrak provided to its
   contracting workforce to ensure sufficient pre-award reviews and contract oversight.




                                                                                           11
   Materials Management Performance. We plan to review the efficiency and effectiveness
   of Amtrak’s processes and practices over receipts, issuances, inventory, and
   distribution of material parts and supplies.

   Competitive Procurement. We will review the percentage of competitive contracts
   Amtrak awarded during FY 2011 and assess whether the level at which Amtrak
   awards contracts competitively is within industry standards, and examine the
   company’s use of noncompetitive procurements.



Potential Focus Areas beyond FY 2012 (Acquisition and Procurement)

In FY 2013 we plan to conduct additional performance audits of Amtrak’s acquisition
and procurement policies, processes, and practices to identify systemic risks and make
recommendations for improvement. Our efforts will include pre-award and post–award
reviews of large contracts, with the goal of identifying cost savings and determining
whether costs are being properly controlled, desired outcomes are being achieved, and
appropriate oversight is occurring. Other potential audits include reviews of Amtrak’s
fuel purchase program and its cost-effectiveness, and use of strategic sourcing practices.




                                                                                             12
INFORMATION TECHNOLOGY

Passenger railroad businesses are labor- and capital-intensive. These businesses rely
increasingly on modern information technology (IT) to improve labor and asset
productivity and deliver safe and reliable customer service. Amtrak recognizes that
many of its existing information systems and IT infrastructure in the areas of
reservations and ticketing, supply chain, and operations are outdated, inefficient, and
increasingly prone to failure. The increasing risk of failure in business-critical systems
must be addressed to ensure the resiliency and continuity of operations. At the same
time, addressing these issues will be costly. Amtrak is making large investments to fix
its information systems.


Recently Issued Reports (Information Technology)

   Wireless Network Security: Internal Controls Can be Improved (Audit Report OIG-A-
   2012-003, December 7, 2011)

   Amtrak has installed wireless networks to allow its employees and contractors to
   connect their laptop computers to Amtrak networks where wired networks are
   difficult and costly to implement. Our office conducted an audit of Amtrak’s
   wireless network security program with the objectives to assess the adequacy of
   Amtrak’s internal controls for wireless network security and its wireless network
   security policies. We found that while Amtrak has generally taken adequate
   measures to ensure that the company’s wireless networks are secure and protect
   company information, some internal control weaknesses related to the wireless
   security program exist, along with some gaps in wireless security policies. These
   conditions occurred mainly due to weaknesses in oversight, policy enforcement, and
   the original security system design, as well as lack of routine policy updates. The
   security control weaknesses related to encryption, passwords, and naming
   convention leave Amtrak information at risk of unauthorized access, modification,
   or destruction. Management agreed with all of our findings and recommendations,
   and has started taking corrective action.




                                                                                             13
  Strategic Asset Management Program: Further Actions Should be Taken to Reduce
  Business Disruption Risk (Audit Report 001-2011, June 2, 2011)

  Amtrak’s Strategic Asset Management (SAM) program is estimated to cost as much
  as $401 million. The goal of the program is to transform key business operations
  such as finance and logistics by replacing or enhancing many manual and
  automated systems. We reviewed the program, given its cost and importance to
  business operations. Our audit objective was to determine whether the
  implementation approach of the first segment, referred to as R1a, effectively
  addressed business disruption risks. We identified several gaps in the testing and
  contingency plans. Left unaddressed, these gaps leave Amtrak vulnerable to
  business disruptions that could reduce revenues, increase costs, and negatively
  affect customer service. We recommended that Amtrak conduct additional testing;
  resolve issues with interfaces, data conversion, network infrastructure, and
  contingency plans; and involve Process Leadership Team members in making a
  go/no-go decision to move forward with the R1a deployment. While management
  agreed with most of our recommendations and added some tests, it decided to
  deploy the system and correct problems as they arose, rather than delay deployment
  to complete the testing.


Ongoing Audits/Inspections and Evaluations (Information Technology)

  Strategic Asset Management: R1a Post Go-live Review. In June 2011, Amtrak
  implemented its Strategic Asset Management (SAM) program’s first segment,
  referred to as R1a. This program is expected to help Amtrak transform key areas of
  the company, implement best practices, integrate business processes, and provide
  timely information for financial reporting, management decision- making, and
  optimum operational performance. After going live in June 2011, the SAM R1a
  implementation experienced a significant number of problems, causing business
  inefficiencies—including negative impact on daily business operations. Therefore,
  our office initiated this review to provide the status of ongoing efforts to resolve
  SAM post-go-live issues; identify the causes of these issues; and provide
  recommendations based on lessons learned to help improve future IT system
  implementations.




                                                                                         14
FY 2012 Potential Audits/Inspections and Evaluations Topics (Information
Technology)

   Information Technology Infrastructure Initiative. In FY 2012, our work will focus on
   assessing the performance of Amtrak’s Information Technology Infrastructure
   Initiative. This initiative focuses on upgrading Amtrak’s IT infrastructure to improve
   service levels and reduce costs.

   Data Analytics. Our office will focus on building a robust data analytics capacity and
   capabilities to assess the control effectiveness of Amtrak’s business processes such as
   purchase to payment and healthcare benefits.


Potential Focus Areas beyond FY 2012 (Information Technology)

Our forward-looking work will focus on assessing the economy, efficiency, and
effectiveness of Amtrak’s key IT programs and systems, such as Centralized
Electrification and Traffic Control System, eTicketing and Next Generation Reservation
System, Food and Beverage and Point of Sale System, Strategic Asset Management,
Enterprise Architecture, Infrastructure Management System, the Amtrak.com web
application, and the Amtrak Information Management. By leveraging data analytics
capabilities, we also plan to assess the control effectiveness of Amtrak’s business
processes such as purchase to payment, materials management/supply chain, payroll,
injury/disability claims, healthcare benefits, and order to cash.




                                                                                             15
TRAIN OPERATIONS AND BUSINESS MANAGEMENT

Amtrak operates over 300 daily trains on over 21,000 miles of rails. It serves 528 stations
in 46 states, 3 Canadian provinces, and the District of Columbia. In 2011, Amtrak moved
more than 30 million intercity passengers. In addition to evaluating Amtrak’s
compliance with laws and federal regulations, we are continually looking for
opportunities for Amtrak to improve the effectiveness and efficiency of its train
operations and business management.


Recently Issued Reports/Testimony (Train Operations and Business
Management)

   Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress,
   but Continued Commitment Needed to Fully Address Provisions (Audit Report A-2012-
   001, October 26, 2011)

   This report examined Amtrak’s progress in addressing the PRIIA provisions
   assigned to it. Amtrak has embraced PRIIA and has made significant strides in
   meeting the act’s provisions. This was a significant accomplishment, given the
   magnitude of the issues addressed under PRIIA. While most of the provisions have
   been met or are in the process of being met, opportunities remain, consistent with
   PRIIA, to increase revenues, minimize federal subsidies, and improve performance.
   For example:

    Placing greater emphasis on reducing more of Amtrak’s debt, specifically long-
     term leases with early buyout options, is one such key opportunity.

    Amtrak’s initial set of performance improvement plans for its long-distance
     routes is too focused on initiatives that are out of its control or depend on
     significant investment of federal subsidies during a time of austere budgets.

    Amtrak does not have a specific process for submitting requests to the Surface
     Transportation Board to investigate substandard rates of on-time performance.
     Such a process is a prerequisite for determining if and when to request an
     investigation, and would enhance the likelihood of success if Amtrak pursued
     this option.




                                                                                              16
 Amtrak has not analyzed the costs or benefits that could be realized by operating
  more special trains. Amtrak may be missing an opportunity to generate
  additional profit by operating more special trains, which could reduce the need
  for federal subsidies.

We made recommendations in each of these areas. In commenting on a draft of this
report, Amtrak’s Chief Financial Officer stated that the report provided useful
information upon which Amtrak management can take action and agreed with the
report’s recommendations.


Americans with Disabilities Act [ADA]: Leadership Needed to Help Ensure That Stations
Served by Amtrak Are Compliant (Audit Report 109-2010, September 29, 2011)

Since 1990 Amtrak has made very limited progress in making its stations ADA-
compliant, only 10 percent of served stations required to be compliant were reported
as compliant. During the last 2 years, Amtrak has laid the groundwork to help
ensure that all stations it serves that are required to be compliant are compliant by
Amtrak’s goal date of September 30, 2015. The key steps in laying the foundation
include (1) determining who has ADA responsibility for the stations Amtrak serves;
(2) refocusing its compliance plan on stations at which Amtrak has sole or shared
ADA responsibility; and (3) most importantly developing a multi-year program,
called the Accessible Station Development Program, to identify and complete the
work required to make stations ADA-compliant. While these are important steps,
progress in implementing the Accessible Station Development program has been
limited. For example, while facility assessments have been completed for some
stations, no construction contracts have been awarded.


Progress and Opportunities in Amtrak’s Implementation of the Passenger Rail Investment
and Improvement Act of 2008 (Testimony TM-11-01, September 14, 2011)

In testimony before the Senate Committee on Commerce, Science, and
Transportation, Subcommittee on Surface Transportation and Merchant Marine
Infrastructure, Safety, and Security, the Amtrak Inspector General discussed the
progress Amtrak has made in implementing provisions of the Passenger Rail
Investment and Improvement Act of 2008 (PRIIA). He pointed out that Amtrak has




                                                                                         17
made good progress in addressing the 29 PRIIA provisions assigned to it and also
highlighted opportunities for further improvements under the act.


Food and Beverage Service: Further Actions Needed to Address Revenue Losses Due to
Control Weaknesses and Gaps (Evaluation Report E-11-03, June 23, 2011)

This report examined the causes of revenue losses associated with Amtrak’s
onboard food and beverage service. While Amtrak has taken some action to address
the internal control weaknesses that have led to and continue to make these
revenues and inventories vulnerable to fraud, waste, and abuse, such weaknesses
and gaps remain. These weaknesses allow certain employees to carry out schemes in
which they falsify documents to conceal stolen cash or inventory. The fraudulent
nature of these schemes makes it difficult to measure onboard losses. Still,
restaurant-industry sources estimate that losses for a typical independent restaurant
due to theft range from 4 percent to 7 percent of sales. On the basis of these
estimates, $4 million to $7 million of Amtrak’s onboard food and beverage sales
could be at risk of theft every year. These losses also damage Amtrak’s reputation as
a steward of federal funds and as a provider of high-quality customer service.

We made the following recommendations, all of which were agreed to by Amtrak
management:

1. Establish a pilot project of cashless food and beverage sales on selected routes
   and trains to determine the short- and long-term effects on operations loss
   prevention, revenues, costs, customer satisfaction, and the onboard work
   environment.

2. Provide the resources needed to establish a loss-prevention unit with dedicated
   staff to manage loss prevention, investigate losses, and provide a visible
   deterrent to fraud, waste, and abuse.

3. Have the loss-prevention unit implement an internal control action plan to
   address weaknesses and gaps in the onboard food and beverage service. The
   plan should include goals, milestones, and procedures to establish




                                                                                        18
   a fraud-awareness program for onboard food and beverage employees;

   internal controls and processes to randomly search lead service attendants and
                                                                                         18
    other service employees to detect possible unauthorized items coming on board;

   internal controls and processes to randomly review lead service attendants’
    inventories of deliveries, en route transfers, and end-of-trip stocks to minimize
    fraud, waste, and abuse; and

   internal controls and processes to randomly search lead service attendants and
    other service employees when departing the train to detect possible stolen items.



Ongoing Audits/Inspections and Evaluations (Train Operations and Business
Management)

  Mechanical Maintenance Operations Follow-up Evaluation. In our September 2005 report
  on Amtrak’s mechanical maintenance operations (E-05-04), we made 34
  recommendations to improve the effectiveness and efficiency of Amtrak’s
  mechanical maintenance program. One of our major recommendations was that
  Amtrak adopt a more modern maintenance philosophy based on reliability-
  centered maintenance (RCM). Since then, Amtrak has made considerable progress in
  adopting RCM and implementing our other recommendations. This follow-up
  evaluation is intended to document the progress that has been made over the last 6
  years and identify continued opportunities to improve the efficiency and
  effectiveness of Amtrak’s mechanical maintenance operations.

  Food and Beverage Service. The objective of food and beverage survey are as follows:

   To what extent have Amtrak’s actions reduced direct operating losses for food
    and beverage service?

   What plans does Amtrak have to reduce direct operating losses for its food and
    beverage service?

   What progress has Amtrak made in implementing OIG’s prior
    recommendations?




                                                                                         19
FY 2012 Potential Audits/Inspections and Evaluations Topics (Train Operations
and Business Management)

   PRIIA Compliance Readiness. During FY 2012, we plan to start an evaluation of
   Amtrak’s plans to achieve the 2014 targets for passenger service set by the Federal
   Railroad Administration (FRA) pursuant to Section 207 of PRIIA. Achieving these
   standards will require considerable effort and funding by Amtrak. Our evaluation
   will assess whether Amtrak has developed reasonable plans to achieve these targets
   and attempt to identify the major risks and obstacles to achieving them.



Potential Focus Areas beyond FY 2012 (Train Operations and Business
Management)

Section 221 of PRIIA requires the Inspector General to complete an assessment of the
progress made by Amtrak management in implementing PRIIA every 2 years after its
first assessment, which was first performed and the report issued on October 26, 2011.
Therefore, we will be conducting this audit in FY 2013. In future years, as resources
become available, we are considering audits or evaluations of Amtrak’s high-speed rail
plans for the Northeast Corridor, Amtrak’s customer service initiatives, its crew-
scheduling procedures, and its new fleet-fielding plans and procedures.




                                                                                         20
HUMAN CAPITAL MANAGEMENT
Amtrak employs approximately 18,000 agreement-covered (union) employees and
approximately 3,000 non-agreement-covered (management) employees, located
throughout the United States. The company faces many of the same challenges and
opportunities faced by most other companies of its size in efficiently and effectively
managing this large, diverse workforce. Being a service organization and the only
intercity passenger rail operator in the United States, the effective development and
management of its talented employees are critical to its success. Our work will focus on
identifying opportunities for Amtrak to improve the efficiency and effectiveness of its
human capital management policies and practices.


Recently Issued Reports (Human Capital Management)

   Human Capital Management: Lack of Priority Has Slowed OIG-Recommended Actions to
   Improve Human Capital Management, Training, and Employee Development Practices
   (Evaluation Report E-11-04, July 8, 2011)

   This report presented the results of a follow-up review of our 2009 evaluations of
   human capital management (E-09-03, May 15, 2009) and training and employee
   development (E-09-06, October 26, 2009). We found that 2 years after we issued 24
   recommendations for improving Amtrak’s human capital management practices
   and 19 months after issuing 27 recommendations to improve training and employee
   development practices, Amtrak had made only limited progress in implementing
   the recommendations. Further, in several cases, the planned actions identified to
   correct significant deficiencies were not responsive to the recommendations and
   would not address the underlying problems; and in some cases, progress was
   exaggerated. As a result, Amtrak continued to suffer from outdated human capital
   management, training, and employee development processes that hindered its
   ability to perform effectively. In addition, Amtrak is increasingly at risk of
   encountering skills shortages, as highly experienced, long-time employees retire.

   To address this situation, we recommended that the President and CEO (1) make
   improved human capital management, training, and employee development a
   clearly articulated priority for the Chief Human Capital Officer, as well as for all




                                                                                           21
  executives and managers at Amtrak; and (2) direct the Chief Human Capital Officer
  to revise the Human Capital Action Plan to include actions that are responsive to
  our recommendations and with reasonable implementation time frames. Amtrak’s
  President and CEO agreed with our recommendations and has tasked the new Chief
  Human Capital Officer with developing an action plan to address our findings and
  recommendations.


  Operation RedBlock: Actions Needed to Improve Program Effectiveness (Evaluation Report
  E-11-01, March 15, 2011)

  Operation RedBlock is a labor-developed, management-supported drug and alcohol
  abuse prevention and intervention program through union-led volunteer-
  prevention committees. We initially issued a report in March 2008 that identified
  significant deficiencies in the program and made 14 recommendations to improve its
  operational and organizational efficiency and effectiveness. Amtrak disagreed with
  many of the recommendations and asserted that the program was operating
  effectively (but did not provide additional information). In July 2009 FRA conducted
  an audit of Amtrak’s compliance with its drug and alcohol regulations, including
  the RedBlock program, and expressed significant concerns with how covered-
  service employees are processed through the RedBlock program, including whether
  RedBlock management was using the program to bypass federally-mandated drug
  and alcohol requirements and standards. We then performed a follow-up evaluation
  to determine the progress made in implementing our previous recommendations,
  and whether the concerns raised in that report had been addressed.

  The results of our follow-up echoed FRA’s concerns and identified many of the same
  issues we had identified in our previous evaluation. Our report made five
  recommendations to address these concerns and improve the effectiveness of the
  program. This time, Amtrak management agreed with our recommendations and
  committed to addressing them through the RedBlock Executive Steering Committee.


Ongoing Audits/Inspections and Evaluations (Human Capital Management)

  Management of Background Investigations. The objectives are to review Amtrak’s
  policies, processes, and practices used to conduct new employee background
  investigations. We are focusing on assessing Amtrak’s oversight of contractors




                                                                                           22
   performing background investigations, and whether contactor-provided data
   support the hiring process in a timely manner.

   Management of Temporary Management Employees. In response to an employee
   complaint, this evaluation is examining whether Amtrak is following its policy that
   governs assignment and management of employees promoted to temporary
   management positions. The complaint alleged that failure to follow the policy has
   resulted in disparate pay practices.

   Management of Overtime. We are conducting a survey of Amtrak’s management
   control processes for the use of overtime.


FY 2012 Potential Audits/Inspections and Evaluations Topics (Human Capital
Management)

During FY 2012, we plan to continue to focus on the following areas:

   Management of Overtime. Based on the results of our ongoing survey of Amtrak’s
   management control processes for the use of overtime, we plan to select areas for
   further review.

   Drug and Alcohol Program. The objective of this evaluation will be to determine if
   Amtrak is exercising proper due diligence in detecting employees who may be
   misusing drugs or alcohol.


Potential Focus Areas beyond FY 2012 (Human Capital Management)

In future years, we plan to continue to focus on areas related to Amtrak’s management
of overtime and employee absenteeism. In addition, as resources become available, we
are considering audits or evaluations of Amtrak’s healthcare programs, looking to
identify areas susceptible to fraud, waste, or abuse, and reviewing whether controls are
adequate to limit the risks.




                                                                                           23
SAFETY AND SECURITY

Since 2004, the need to protect rail infrastructure from terrorist attack has been critical
because of the bombings of the Madrid and Mumbai rail systems. Further recent
information has shown that Amtrak was a target being considered by terrorist
organizations. Since 2005, the Department of Homeland Security (DHS) Transit Security
Grant Program has provided more than $97 million in grant funding to Amtrak to
protect critical infrastructure. Amtrak’s Police Department has used this grant funding
for planning and assessments, infrastructure protection, training and public awareness,
and exercises. Our work in FY 2012 and beyond will focus on Amtrak’s use of grant
funds to improve the efficiency and effectiveness of Amtrak’s safety and security
policies and practices.


Recently Issued Reports (Safety and Security)

See American Recovery and Reinvestment Act of 2009 (ARRA) section below for a recently-
issued report in the area of security.


Ongoing Audits/Inspections and Evaluations (Safety and Security)

   Positive Train Control Evaluation. The Rail Safety Improvement Act of 2008 requires
   the implementation of positive train control (PTC) systems by December 31, 2015, on
   all routes that carry passenger rail traffic. PTC systems are designed to prevent
   accidents, including train-to-train collisions, derailments resulting from trains
   exceeding safe speeds, unauthorized incursions into work zones, and movement of
   trains through switches left in the wrong position. The objective of this evaluation is
   to assess Amtrak’s efforts to implement positive train control across the national
   system by the end of 2015. To accomplish this, we will identify and analyze the risks
   and challenges associated with implementing three different PTC systems, focusing
   on cost, schedule, performance, and sustainment issues.




                                                                                              24
FY 2012 Potential Audits/Inspections and Evaluations Topics (Safety and
Security)

   Security Improvements. During FY 2012, we plan to start an audit of Amtrak’s use of
   Department of Homeland Security funding for security improvements. Since 2005,
   the Department of Homeland Security has provided more than $103 million in grant
   funding to Amtrak to protect critical infrastructure. Our audit will review Amtrak’s
   management of projects funded with DHS funds with a focus on improving the
   efficiency and effectiveness of project implementation.


Potential Focus Areas beyond FY 2012 (Safety and Security)

Our forward-looking work will continue to focus on the effective and efficient use of
grant funds and the adequacy of security policies and procedures. In addition, we
intend to look at the Safe-2-Safer program—Amtrak’s primary effort to reduce risk by
involving every level of management and front-line employees in safety.




                                                                                          25
AMERICAN RECOVERY AND REINVESTMENT ACT OF 2009
The American Recovery and Reinvestment Act of 2009 (ARRA) authorized FRA to
provide $1.3 billion to Amtrak through a grant agreement. This agreement allocated
about $850 million for capital projects for the repair, rehabilitation, or upgrade of
railroad assets or infrastructure, and about $450 million for capital security projects,
including life safety improvements. Our work is aimed at providing Congress with
information on Amtrak’s use of ARRA funds, to include validating costs incurred and
the associated benefit to Amtrak. In addition, our work will review Amtrak’s
management of projects, with a focus on improving project economy, efficiency, and
effectiveness.


Recently Issued Reports (American Recovery and Reinvestment Act of 2009):

   American Recovery and Reinvestment Act: Infrastructure Improvements Achieved but Less
   than Planned (Audit Report 908-2010, June 22, 2011)

   Although ARRA funding enabled Amtrak’s Engineering Department to make some
   infrastructure improvements, they will be fewer in number than originally planned
   and budgeted. Between March 2009 and November 2010, ARRA funding was
   reprogrammed nine times; resulting in the Engineering Department’s removing 34
   projects, leaving 37 assigned to a contractor. Specifically, 21 projects (with an
   estimated budget of $55.7 million) were canceled, and 13 projects (with an estimated
   budget of $19.5 million) were transferred to the capital budget. These changes
   occurred primarily because the original grant language drove project selection
   toward projects that could be completed by February 17, 2011, and the substitution
   of higher-priority projects by Amtrak senior management and the Engineering
   Department. Amtrak spent about $1.4 million on canceled contractor projects. We
   recommended that the Chief Engineer give canceled ARRA projects priority when
   making future infrastructure-improvement-project-selection decisions, and provide
   written justification to support the funding of higher-priority projects. In
   commenting on a draft of this report, the Chief Engineer stated that he intends to
   give priority to canceled projects.




                                                                                           26
   Fewer Security Improvements than Anticipated Will Be Made and Majority of Projects Are
   Not Complete (Audit Report 914-2010, June 16, 2011)

   ARRA funding enabled the Amtrak Police Department (APD) to make some security
   improvements, but the improvements will be fewer than originally planned and
   budgeted. Between April 2009 and November 2010, ARRA funding for police and
   security projects was cut by more than half, from $196 million to $95 million. This
   decrease caused 33 projects to be canceled, and the budget and scope of work for 16
   additional projects was reduced. Funding was reduced primarily because the grant
   language drove project selection toward those that could be completed by the
   February 17, 2011, deadline, and in some cases bids were significantly higher than
   budgeted amounts. Amtrak spent about $1.7 million on canceled APD projects. To
   the extent that these projects are not funded in the future, these funds are at risk of
   being wasted. To avoid wasting $1.7 million spent on canceled projects, we
   recommended that the Vice President/Chief of Police give canceled ARRA projects
   priority when making future security improvement project-selection decisions. The
   Vice President/Chief of Police has implemented our recommendation.


Ongoing Audits/Inspections and Evaluations (American Recovery and
Reinvestment Act of 2009)

   Incurred Costs on Design/Build Contracts. Our objective is to determine if invoiced
   costs are reasonable and allowable. To accomplish this objective, we are reviewing a
   sample of contracts to ensure that costs are in accordance with contractual terms,
   general and supplemental contractual provisions, and the Federal Acquisition
   Regulation, as well as Amtrak’s policies and procedures.


FY 2012 Potential Audit Topics (American Recovery and Reinvestment Act of
2009)

We plan on continuing audits of selected major contracts awarded with ARRA funds to
ensure that the costs incurred were reasonable and allowable under the contract.




                                                                                             27
Potential Focus Areas beyond FY 2012 (American Recovery and Reinvestment
Act of 2009)

Our forward-looking work will focus on selected major contracts awarded with ARRA
funds to ensure that costs incurred were reasonable and allowable under the contract.
We expect all work related to ARRA to be finished in FY 2013.




                                                                                        28
ASSET MANAGEMENT
Amtrak owns over 2,000 pieces of rail equipment, with a replacement value of over $12
billion. In addition, the company owns over 1,300 facilities; 1,186 bridges; 17 tunnels;
and over 600 miles of right-of-way; along with the associated signals, catenary, and
track, valued at a total of over $17 billion. Optimizing the utilization of these assets will
help Amtrak achieve its corporate goals and improve its overall financial health. Our
work will focus on identifying opportunities for Amtrak to improve the utilization and
management of its physical assets.

Recently Issued Reports (Asset Management)

   Evaluation of Amtrak’s FY 2010 Fleet Strategy: A Commendable High-Level Plan That
   Needs Deeper Analysis and Planning Integration (Evaluation Report E-11-02, March 31,
   2011)

   In February 2010, as part of its FY 2011 Grant and Legislative Request, Amtrak
   published a fleet strategy outlining the need to spend $23 billion over the next 30
   years to replace aging equipment and to provide the fleet necessary to meet future
   ridership demand. In May 2010, the former Ranking Member of the Senate
   Appropriations Committee, Subcommittee on Transportation, Housing and Urban
   Development, and Related Agencies, requested that we conduct a comprehensive
   review of the strategy.

   We found that Amtrak did a commendable job of using a holistic approach to create
   a comprehensive fleet strategy that was greatly needed. Its approach is a reasonable
   first step and may be appropriate for determining a high-level estimate of future
   equipment needs. However, our evaluation identified seven areas in which Amtrak
   could improve the reasonableness or validity of its data and assumptions by
   conducting additional and more detailed analyses.

   This additional analysis may support decisions that could reduce the funding
   requirements by hundreds of millions, if not billions, of dollars. For example, we
   estimate that if Amtrak were able to replace all of its single-level cars with a seat-
   equivalent number of multi-level cars, the benefits could amount to $679 million
   over the economic life of the equipment.




                                                                                                29
   Amtrak’s President and CEO stated that management agreed with all of our
   recommendations. He noted that Amtrak addressed some of our recommendations
   in the recently published FY 2011 Fleet Strategy Plan and planned to address the
   remaining recommendations in future strategy updates.


Ongoing Audits/Inspections and Evaluations (Asset Management)

   Amtrak’s Plans to Expand Acela Capacity. In February 2011, Amtrak published a
   revised Fleet Strategy outlining a plan to purchase 40 new cars to augment the
   capacity of the Acela trainsets. The objective of this evaluation is to assess whether
   the projected future revenues in the business case are supported by reasonable
   estimates and assumptions.


FY 2012 Potential Audits/Inspections and Evaluations Topics (Asset
Management)

      Fleet Strategy. During FY 2012, we plan to continue our oversight of Amtrak’s
      fleet procurement plans by reviewing the revised fleet strategy to be published in
      February 2012 to assess the degree to which the recommendations from our
      previous report were incorporated.

      Fleet Utilization. We plan to start an evaluation of the utilization of Amtrak’s
      rolling stock fleet, looking to identify opportunities where Amtrak can improve
      the utilization and return from its rolling stock assets.

      Real Estate Management. We plan to audit Amtrak’s management of its real estate
      assets. Amtrak’s total commercial development revenue generated in FY 2010
      was $74.8 million.


Potential Focus Areas beyond FY 2012 (Asset Management)

Our forward-looking work will continue to focus on opportunities to improve the
return from Amtrak’s infrastructure assets, including an evaluation of the utilization
and management of Amtrak’s maintenance and construction equipment.




                                                                                            30
          OIG MISSION AND CONTACT INFORMATION

Amtrak OIG’s Mission   The Amtrak OIG goals and perceptions of how best it can
                       affect Amtrak’s mission, as spelled out in the Inspector
                       General Act of 1978, as amended:
                          Conduct and supervise independent and objective
                          audits, inspections, evaluations, and investigations
                          relating to Amtrak programs and operations
                          Promote economy, effectiveness, and efficiency within
                          Amtrak and the OIG
                          Prevent and detect fraud, waste, and abuse in Amtrak
                          programs and operations
                          Review Amtrak security and safety policies and
                          programs
                          Make recommendations regarding existing and
                          proposed legislation and regulations relating to
                          Amtrak's programs and operations
                         Keep Amtrak and Congress fully and currently
                         informed of problems in company programs and
                         operations.
Obtaining Copies of    Available at our website: www.amtrakoig.gov
OIG Reports and
Testimony
To Report Fraud,       Report suspicious or illegal activities to the OIG Hotline
Waste, and Abuse       (you can remain anonymous):

                       Web:     www.amtrakoig.gov/hotline
                       Phone: 800-468-5469
Congressional and      E. Bret Coulson, Senior Director
Public Affairs         Congressional and Public Affairs
                       Mail:     10 G Street, N.E., Suite 3W-300
                                 Washington, DC 20002
                       Phone:    202.906.4134
                       E-mail:   bret.coulson@amtrakoig.gov
